No.
In the

Supreme Court of the United States
____________________, Petitioner
v.
UNITED STATES, Respondent
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

Certificate of Service

Pursuant to Rule 29.4 of this Court, I hereby certify that on this date,
one copy of Petitioner’s Motion for Leave to Proceed In Forma Pauperis and
one copy of the Petition for Writ of Certiorari were delivered to:
Michael Bailey
Office of the United States Attorney
405 W. Congress Street, Suite 4800
Tucson, AZ 85701-5040
(520) 620-7300

On this date, one copy of Petitioner’s Motion for Leave to Proceed In
Forma Pauperis and one copy of the Petition for Writ of Certiorari were
mailed to:
Solicitor General of the United States
Room 5614
Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001
On this date, the original and ten copies of Petitioner’s Motion for
Leave to Proceed In Forma Pauperis and the Petition for Writ of Certiorari
were mailed to:
UNITED STATES SUPREME COURT
Clerk’s Office
1 First Street, N.E.
Washington, DC 20543
Dated August 9, 2021.
s/S. Jonathan Young
S. JONATHAN YOUNG
Post Office Box 42245
Tucson, Arizona 85733-2245
(520) 795-0525
jon@williamsonandyoung.com
Counsel of Record for Petitioner

2

